               Department of Veterans Affairs
               Office of Inspector General


                   Office of Healthcare Inspections

Report No. 13-00026-07




       Community Based Outpatient 

             Clinic Reviews 

                    at 

         VA Greater Los Angeles 

           Healthcare System 

            Los Angeles, CA 





November 6, 2013

                         Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                           CBOC Reviews at VA Greater Los Angeles HS



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       EHR      electronic health record
                       EM       emergency management
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       HS       Healthcare System
                       IT       information technology
                       MH       Mental Health
                       MSEC     Medical Staff Executive Committee
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                        CBOC Reviews at VA Greater Los Angeles HS



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        4


Onsite Reviews – Results and Recommendations..................................................                                    6

  CBOC Characteristics .............................................................................................              6

  C&P ........................................................................................................................    7

  EOC and EM ...........................................................................................................          8


Appendixes
  A. VISN 22 Director Comments .............................................................................                     10

  B. VA Greater Los Angeles HS Director Comments ..............................................                                  11

  C. OIG Contact and Staff Acknowledgments .........................................................                             13

  D. Report Distribution .............................................................................................           14





VA OIG Office of Healthcare Inspections
                                                       CBOC Reviews at VA Greater Los Angeles HS



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during                           the   week    of
August 19, 2013. The review covered the following topic areas:

	   WH

	   Vaccinations

	   C&P

	   EOC

	   EM

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and EM onsite inspections were only conducted at the randomly selected CBOCs
(see Table 1).

     VISN       Facility                   CBOC Name               Location
                                           Antelope Valley         Lancaster, CA
                VA Greater
       22                                  Bakersfield             Bakersfield, CA
                Los Angeles HS
                                           Santa Barbara           Santa Barbara, CA
                                      Table 1. Sites Inspected

Review Results: We made recommendations in two review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

	 Ensure that clinicians document all required tetanus and pneumococcal vaccine
   administration elements and that compliance is monitored.

	 Ensure that the Antelope Valley CBOC IT closet is maintained according to IT
   security standards.




VA OIG Office of Healthcare Inspections                                                       i
                                                CBOC Reviews at VA Greater Los Angeles HS


Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A
and B, pages 10–12, for the full text of the Directors’ comments.) We will follow up on
the planned actions until they are completed.




                                             JOHN D. DAIGH, JR., M.D. 

                                           Assistant Inspector General for 

                                               Healthcare Inspections 





VA OIG Office of Healthcare Inspections                                                ii
                                                              CBOC Reviews at VA Greater Los Angeles HS



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to Centers for Disease Control and Prevention guidelines and VHA
   recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   EM

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and


1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                 CBOC Reviews at VA Greater Los Angeles HS


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and EM onsite inspections were only conducted at the randomly
selected CBOCs. Three CBOCs were randomly selected from the 56 sampled parent
facilities, with sampling probabilities proportional to the number of CBOCs eligible to be
inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                 2
                                                                                                           CBOC Reviews at VA Greater Los Angeles HS



                                                               CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                            Uniques FY             Visits FY
VISN           Parent Facility                   CBOC Name6                 Locality7                                                 CBOC Size9
                                                                                              20128                  20128
                                                 Antelope Valley              Urban              4,264               13,048             Mid-Size
                                                 (Lancaster, CA)
                                                     Bakersfield              Urban              6,770               70,975               Large
                                                (Bakersfield, CA)
                                             East Los Angeles Clinic          Urban              1,972               15,111             Mid-Size
                                                (Commerce, CA)
                                                      Gardena                 Urban              2,981                9,334             Mid-Size
                                                  (Gardena, CA)
                                                    Los Angeles               Urban             13,513              151,724            Very Large
                                               (Los Angeles, CA)
    22   VA Greater Los Angeles HS
                                                  Port Hueneme                Urban              6,081               20,882               Large
                                                   (Oxnard, CA)
                                                San Luis Obispo               Urban              3,918               18,174             Mid-Size
                                             (San Luis Obispo, CA)
                                                  Santa Barbara               Urban              2,803               18,629             Mid-Size
                                              (Santa Barbara, CA)
                                                    Santa Maria               Urban              6,142               36,358               Large
                                               (Santa Maria, CA)
                                                     Sepulveda                Urban             32,666              310,608            Very Large
                                                (Sepulveda, CA)
                                                                  Table 2. Profiles

5
  Includes all CBOCs in operation before October 1, 2011.

6
  The Pasadena (San Gabriel, CA) CBOC was temporarily suspended and has been excluded from this list.

7
  http://vaww.pssg.med.va.gov/

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics, 

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                  3
                                                               CBOC Reviews at VA Greater Los Angeles HS



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
                               Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 37 patients who received                             a    cervical     cancer       screening       at
VA Greater Los Angeles HS’s CBOCs.

Generally, the CBOCs assigned to the VA Greater Los Angeles HS were compliant with
the review areas; therefore, we made no recommendations.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The Centers for Disease Control and Prevention states that although

10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                         CBOC Reviews at VA Greater Los Angeles HS


vaccine-preventable disease levels are at or near record lows, many adults are under-
immunized, missing opportunities to protect themselves against tetanus and
pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review element marked
as NC needed improvement. Details regarding the finding follow the table.

         NC                                     Areas Reviewed
                    Staff screened patients for the tetanus vaccination.
                    Staff administered the tetanus vaccine when indicated.
                    Staff screened patients for the pneumococcal vaccination.
                    Staff administered the pneumococcal vaccine when indicated.
          X         Staff properly documented vaccine administration.
                                          Table 4. Vaccinations

Documentation of Vaccinations.        Federal Law requires that documentation for
administered vaccines include specific elements, such as the vaccine manufacturer and
lot number of the vaccine used.14 We reviewed the EHRs of 31 patients who received a
tetanus vaccine at the parent facility or its associated CBOCs and did not find
documentation of all the required information related to tetanus vaccine administration
in 28 of the EHRs. We reviewed the EHRs of 38 patients who received a
pneumococcal vaccination at the parent facility or its associated CBOCs and did not find
documentation of all the required information related to pneumococcal vaccine
administration in 22 of the EHRs.

Recommendation

1. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccine administration elements and that compliance is
monitored.




14
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                         5
                                                       CBOC Reviews at VA Greater Los Angeles HS



                              Onsite Reviews 

                      Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                            Antelope Valley             Bakersfield              Santa Barbara
 VISN                                22                        22                        22
 Parent Facility                 VA Greater               VA Greater                 VA Greater
                               Los Angeles HS           Los Angeles HS             Los Angeles HS
 Types of Providers              Audiologist              Audiologist                 Dietician
                              Nurse Practitioner            Dentist            Licensed Clinical Social
                             Physician Assistant        Kinesiotherapist               Worker
                           Primary Care Physician   Licensed Clinical Social      Nurse Practitioner
                            Registered Dietician            Worker             Primary Care Physician
                                                       Nurse Practitioner            Psychiatrist
                                                           Optician                 Psychologist
                                                          Optometrist
                                                          Pharmacist
                                                    Primary Care Physician
                                                           Podiatrist
                                                          Psychiatrist
                                                         Psychologist
                                                      Registered Dietician
 Number of MH                       149                      2,174                      1,155
 Uniques,
 FY 2012
 Number of MH Visits,               558                     20,923                      5,640
 FY 2012
 MH Services Onsite                 Yes                       Yes                        Yes

 Specialty Care                  Audiology                Audiology                      WH
 Services Onsite                                            Dental
                                                          Optometry
                                                           Podiatry
                                                              WH
 Ancillary Services          Electrocardiogram        Electrocardiogram          Electrocardiogram
 Provided Onsite                Laboratory                Laboratory                Laboratory
                                  Nutrition             Optician Care
                                 Radiology                Pharmacy
                                                      Physical Medicine
 Tele-Health Services               MH                 Retinal Imaging              Dermatology
                                                              MH                        MH
                                                      Care Coordination
                                                       Home Telehealth
                                       Table 5. Characteristics




VA OIG Office of Healthcare Inspections                                                              6
                                                     CBOC Reviews at VA Greater Los Angeles HS


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.15 Table 6 shows the areas reviewed for this topic.

           NC                                     Areas Reviewed
                         Each provider’s license was unrestricted.
                                         New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.

15
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                     7
                                                    CBOC Reviews at VA Greater Los Angeles HS


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOC identified as NC needed improvement. Details regarding the finding follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was Americans with Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
     Antelope       IT security rules were adhered to.
      Valley
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).
                    The CBOC was included in facility-wide EOC activities.
                                          Table 7. EOC




VA OIG Office of Healthcare Inspections                                                    8
                                                             CBOC Reviews at VA Greater Los Angeles HS


IT Security. VA requires that IT closets that contain equipment or information critical to
the information infrastructure be secured and that an access log must be maintained.16
Lack of oversight for IT space access and sharing of allocated IT space could lead to
potential loss of secure information. We found the IT closet door open with the padlock
unlatched at the Antelope Valley CBOC. We also found a bedside table and two duffle
bags with disaster supplies in the IT closet at the Santa Barbara CBOC and noted that
the access log was just initiated the week prior to the site visit. The bedside table and
duffle bags were removed immediately.

Recommendation

2. We recommended that the Antelope Valley CBOC IT closet is maintained according
to IT security standards.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.17 Table 8 shows the areas
reviewed for this topic.

           NC                                       Areas Reviewed
                         There was a local medical emergency management plan for this
                         CBOC.
                         The staff articulated the procedural steps of the medical emergency
                         plan.
                         The CBOC had an automated external defibrillator onsite for cardiac
                         emergencies.
                         There was a local MH emergency management plan for this CBOC.
                         The staff articulated the procedural steps of the MH emergency
                         plan.
                                     Table 8. Emergency Management

The CBOCs were compliant with the review areas; therefore, we made no
recommendations.




16
     VA Handbook 6500, Information Security Program, September 18, 2007.
17
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                             9
                                                    CBOC Reviews at VA Greater Los Angeles HS
                                                                                  Appendix A

                               VISN 22 Director Comments



               Department of
               Veterans Affairs                               Memorandum


       Date: 	          October 15, 2013

       From: 	          Director, VISN 22 (10N22)

       Subject: 	       CBOC Reviews at VA Greater Los Angeles HS

       To: 	            Director, Los Angeles Regional Office of Healthcare
                        Inspections (54LA)

                        Acting Director, Management Review Service (VHA 10AR
                        MRS OIG CAP CBOC)

       1. I concur with the findings and recommendations in the report of the
          Community Based Outpatient Clinic Reviews at VA Greater Los
          Angeles Healthcare System, Los Angeles, CA (Report No. not yet
          assigned), Recommendations 1 and 2.

       2. If you have any questions regarding our responses and actions to the
          recommendations in the draft report, please contact me at (562) 826-
          5963.



       (original signed by:)
       Stan Johnson, MHA, FACHE


        Attachment




VA OIG Office of Healthcare Inspections                                                   10
                                                     CBOC Reviews at VA Greater Los Angeles HS
                                                                                   Appendix B

           VA Greater Los Angeles HS Director Comments



               Department of
               Veterans Affairs                                Memorandum


       Date:           October 3, 2013


       From:           Director, VA Greater Los Angeles HS (691/00) 


       Subject:        CBOC Reviews at VA Greater Los Angeles HS 


       To:             Director, VISN 22 (10N22) 




       1. I have reviewed and concur with the findings and recommendations in
       the report of the Community-Based Outpatient Clinics (CBOC) Review.

       2. Should you have further questions or comments, please contact Ms.
       Joan Lopes, Chief, Quality Management, at (310) 268-3585.


       Sincerely,




       Donna M. Beiter, R.N., M.S.N.




VA OIG Office of Healthcare Inspections                                                    11
                                                CBOC Reviews at VA Greater Los Angeles HS


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccine administration elements and that compliance is
monitored.

Concur

Target date for completion: March 31, 2014

Facility’s response: Tetanus and pneumococcal vaccinations will be documented as
required. Evidence of compliance will be available.

2. We recommended that the Antelope Valley CBOC IT closet is maintained according
to IT security standards.

Concur

Target date for completion: November 30, 2013

Facility’s response: Antelope Valley CBOC IT closet will be maintained according to IT
security standards. Documented evidence of compliance will be available.




VA OIG Office of Healthcare Inspections                                               12
                                                   CBOC Reviews at VA Greater Los Angeles HS
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Mary Toy, RN, MSN
Contributors            Julie Watrous, RN, MSN
Other                   Daisy Arugay, MT
Contributors            Shirley Carlile, BA
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Keyla Gammarano, MPH
                        Yoonhee Kim, PharmD
                        Jackelinne Melendez, MPA
                        Jennifer Reed, RN, MSHI
                        Simonette Reyes, RN
                        Victor Rhee, MHS
                        Kathleen Shimoda, RN
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  13
                                               CBOC Reviews at VA Greater Los Angeles HS
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 22 (10N22)
Director, VA Greater Los Angeles HS (691/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Barbara Boxer, Dianne Feinstein
U.S. House of Representatives: Karen Bass, Xavier Becerra, Julia Brownley,
 Lois Capps, Tony Cardenas, Judy Chu, Kevin McCarthy, Howard McKeon,
 Grace Napolitano, Lucille Roybal-Allard, Adam Schiff, Brad Sherman, Maxine Waters,
 Henry Waxman


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              14
